APPENDIX
Proclamation 10142 of January 20, 2021, Termination of
Emergency With Respect to the Southern Border of the
United States and Redirection of Funds Diverted to Border
Wall Construction, 86 Fed. Reg. 7225 (Jan. 27, 2021) ........1a
Memorandum from the Deputy Secretary of Defense to the
Chairman of the Joint Chiefs of Staff et al., Re:
Department of Defense Actions Regarding the Proclamation
of January 20, 2021 (Jan. 23, 2021) .........................4a

7225

Presidential Documents

Federal Register
Vol. 86, No. 16
Wednesday, January 27, 2021

Title 3—

Proclamation 10142 of January 20, 2021

The President

Termination of Emergency With Respect to the Southern Border of the United States and Redirection of Funds Diverted
to Border Wall Construction
By the President of the United States of America
A Proclamation
Like every nation, the United States has a right and a duty to secure
its borders and protect its people against threats. But building a massive
wall that spans the entire southern border is not a serious policy solution.
It is a waste of money that diverts attention from genuine threats to our
homeland security. My Administration is committed to ensuring that the
United States has a comprehensive and humane immigration system that
operates consistently with our Nation’s values. In furtherance of that commitment, I have determined that the declaration of a national emergency at
our southern border in Proclamation 9844 of February 15, 2019 (Declaring
a National Emergency Concerning the Southern Border of the United States),
was unwarranted. It shall be the policy of my Administration that no more
American taxpayer dollars be diverted to construct a border wall. I am
also directing a careful review of all resources appropriated or redirected
to construct a southern border wall.

khammond on DSKJM1Z7X2PROD with PRESDOC

NOW, THEREFORE, I, JOSEPH R. BIDEN JR., President of the United States
of America, by the authority vested in me by the Constitution and the
laws of the United States of America, including section 202 of the National
Emergencies Act (50 U.S.C. 1601 et seq.), hereby declare that the national
emergency declared by Proclamation 9844, and continued on February 13,
2020 (85 Fed. Reg. 8715), and January 15, 2021, is terminated and that
the authorites invoked in that proclamation will no longer be used to construct a wall at southen border. I hereby futher direct as follows:
Section 1. Pause in Construction and Obligation of Funds. (a) The Secretary
of Defense and the Secretary of Homeland Security, in consultation with
the Director of the Office of Management and Budget, shall direct the appropriate officials within their respective departments to:
(i) pause work on each construction project on the southern border wall,
to the extent permitted by law, as soon as possible but in no case later
than seven days from the date of this proclamation, to permit:
(A) assessment of the legality of the funding and contracting methods
used to construct the wall;
(B) assessment of the administrative and contractual consequences of
ceasing each wall construction project; and
(C) completion and implementation of the plan developed in accordance with section 2 of this proclamation;
(ii) pause immediately the obligation of funds related to construction
of the southern border wall, to the extent permitted by law; and
(iii) compile detailed information on all southern border wall construction
contracts, the completion status of each wall construction project, and
the funds used for wall construction since February 15, 2019, including
directly appropriated funds and funds drawn from the Treasury Forfeiture
Fund (31 U.S.C. 9705(g)(4)(B)), the Department of Defense Drug Interdiction
and Counter-Drug Activities account (10 U.S.C. 284), and the Department

VerDate Sep<11>2014

17:11 Jan 26, 2021

Jkt 253250

PO 00000

Frm 00001

(1a)
Sfmt 4790

Fmt 4705

E:\FR\FM\27JAD0.SGM

27JAD0

7226

2a

Federal Register / Vol. 86, No. 16 / Wednesday, January 27, 2021 / Presidential Documents
of Defense Military Construction account (pursuant to the emergency authorities in 10 U.S.C. 2808(a) and 33 U.S.C. 2293(a)).
(b) The pause directed in subsection (a)(i) of this section shall apply
to wall projects funded by redirected funds as well as wall projects funded
by direct appropriations. The Secretary of Defense and the Secretary of
Homeland Security may make an exception to the pause, however, for urgent
measures needed to avert immediate physical dangers or where an exception
is required to ensure that funds appropriated by the Congress fulfill their
intended purpose.
Sec. 2. Plan for Redirecting Funding and Repurposing Contracts. The Secretary of Defense and the Secretary of Homeland Security, in coordination
with the Secretary of the Treasury, the Attorney General, the Director of
the Office of Management and Budget, and the heads of any other appropriate
executive departments and agencies, and in consultation with the Assistant
to the President for National Security Affairs, shall develop a plan for
the redirection of funds concerning the southern border wall, as appropriate
and consistent with applicable law. The process of developing the plan
shall include consideration of terminating or repurposing contracts with
private contractors engaged in wall construction, while providing for the
expenditure of any funds that the Congress expressly appropriated for wall
construction, consistent with their appropriated purpose. The plan shall
be developed within 60 days from the date of this proclamation. After
the plan is developed, the Secretary of Defense and the Secretary of Homeland
Security shall take all appropriate steps to resume, modify, or terminate
projects and to otherwise implement the plan.
Sec. 3. Definition. Consistent with Executive Order 13767 of January 25,
2017 (Border Security and Immigration Enforcement Improvements), for the
purposes of this proclamation, ‘‘wall’’ means a contiguous, physical wall
or other similarly secure, contiguous, and impassable physical barrier.
Sec. 4. General Provisions. (a) Nothing in this proclamation shall be construed
to impair or otherwise affect:
(i) the authority granted by law to an executive department or agency,
or the head thereof; or
(ii) the functions of the Director of the Office of Management and Budget
relating to budgetary, administrative, or legislative proposals.
(b) This proclamation shall be implemented consistent with applicable
law and subject to the availability of appropriations.

khammond on DSKJM1Z7X2PROD with PRESDOC

(c) This proclamation is not intended to, and does not, create any right
or benefit, substantive or procedural, enforceable at law or in equity by
any party against the United States, its departments, agencies, or entities,
its officers, employees, or agents, or any other person.

VerDate Sep<11>2014

17:11 Jan 26, 2021

Jkt 253250

PO 00000

Frm 00002

Fmt 4705

Sfmt 4790

E:\FR\FM\27JAD0.SGM

27JAD0

3a

Federal Register / Vol. 86, No. 16 / Wednesday, January 27, 2021 / Presidential Documents

7227

IN WITNESS WHEREOF, I have hereunto set my hand this twentieth day
of January, in the year of our Lord two thousand twenty-one, and of the
Independence of the United States of America the two hundred and fortyfifth.

[FR Doc. 2021–01922
Filed 1–26–21; 8:45 am]

VerDate Sep<11>2014

17:11 Jan 26, 2021

Jkt 253250

PO 00000

Frm 00003

Fmt 4705

Sfmt 4790

E:\FR\FM\27JAD0.SGM

27JAD0

BIDEN.EPS</GPH>

khammond on DSKJM1Z7X2PROD with PRESDOC

Billing code 3295–F1–P

4a

DEPUTY SECRETARY OF DEFENSE
1010 DEFENSE PENTAGON
WASHINGTON, DC 20301-1010

JAN 2 3 2021
MEMORANDUM FOR CHAIRMAN OF THE JOINT CHIEFS OF STAFF
UNDER SECRETARY OF DEFENSE FOR POLICY
UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
FINANCIAL OFFICER OF THE DEPARTMENT OF DEFENSE
UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND
READINESS
GENERAL COUNSEL OF THE DEPARTMENT OF DEFENSE
UNDER SECRETARY OF THE ARMY
COMMANDER, U.S. ARMY CORPS OF ENGINEERS
SUBJECT: Department of Defense Actions Regarding the Proclamation of January 20, 2021,
Termination of Emergency with Respect to the Southern Border of the United States
and Redirection of Funds Diverted to Border Wall Construction
In the attached proclamation of January 20, 2021, "Termination of Emergency with
Respect to the Southern Border of the United States and Redirection of Funds Diverted to Border
Wall Construction," the President terminated the national emergency with respect to the southern
border, declared in Proclamation 9844, and continued on February 13, 2020 (85 Fed. Reg. 8715),
and January 15, 2021 (86 Fed. Reg. 6557), and the authorities based on that emergency, and
directed further actions related to construction of border barriers. The termination of the national
emergency eliminates the authority to issue orders for units and members under title 10, U.S.
Code, section 12302, but does not otherwise affect the authority to continue supporting the
Department of Homeland Security at the southern border outside the framework of the
terminated national emergency.
To implement the President's direction, the following actions shall be initiated:
•

The Under Secretary of Defense for Policy (USD(P)) shall undertake, in coordination
with the Commander, U.S. Army Corps of Engineers, and the Under Secretary of
Defense (Comptroller)/Chief Financial Officer (USD(C)/CFO), and in consultation
with the Director of the Office of Management and Budget, the following actions:
- An assessment of the administrative and contractual consequences of ceasing
each border barrier construction project authorized pursuant to title 10, U.S.
Code, sections 284 and 2808.
- A compilation of detailed information on all southern border wall construction
contracts authorized pursuant to title 10, U.S. Code, sections 284 and 2808,
the completion status of each wall construction project, including any land
acquisition, and the funds used for wall construction since February 15, 2019.

•

The USD(P) shall develop, in coordination with the USD(C)/CFO, and in
consultation with the Secretary of the Treasury, the Attorney General, the Director of

1111111Ulll 111 1 1
O8D000495-21 /CMD000967-21

5a

6a

